Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0150n.06
No. 20-3201
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.
BRUCE LEE FELIX,
Defendant-Appellant.

FILED

Mar 23, 2021
DEBORAH S. HUNT, Clerk
ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE SOUTHERN
DISTRICT OF OHIO

BEFORE: BATCHELDER, GRIFFIN, and BUSH, Circuit Judges.
GRIFFIN, Circuit Judge.
Defendant Bruce Felix robbed two metro-Cincinnati banks within four months in 2015.
He raises three discrete issues in this appeal arising out of his multiple convictions in connection
with those robberies: (1) the admission into evidence of a prior bank-robbery conviction; (2) the
method used to secure witnesses’ voice identifications of Felix; and (3) the delay in his trial under
the Speedy Trial Act and the Sixth Amendment. We affirm.
I.
This criminal appeal stems from two bank robberies in the western-Cincinnati suburbs, the
Cincinnatus Savings & Loan in Colerain, Ohio, and the Cheviot Savings Bank in Harrison, Ohio.
The robberies were remarkably similar. Both occurred as the banks were opening on a Wednesday
morning around 8:00 am. Both involved a masked and gloved man brandishing a gun who forced

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 2

No. 20-3201, United States v. Felix
his way inside. And in both instances, the man required the employees to disable the alarm and
then restrained them with pre-set zip-ties. The robber netted over $240,000 from the banks’ vaults.
Following receipt of a letter penned by Tara Love, law enforcement officials focused on
Felix as a suspect. Love was his girlfriend at the time of the robberies and provided authorities
with significant information linking him to both. She explained to the police that she and Felix
were struggling financially and were without gainful employment before the robberies. According
to Love, on the morning of the Cincinnatus robbery, Felix “came running in the house and woke
[her] up and showed [her] the bag of money that he had stole,” and described how he robbed the
bank (including his use of a plastic gun to force his way inside and black zip-ties to neutralize
employees). Felix then gave her $15,000, and “packed a bag and went to Tennessee.” Felix made
several large cash purchases for lavish items after the Cincinnatus robbery, including a Corvette,
a Cadillac Escalade, a trailer, a vacation to Myrtle Beach, South Carolina, and a diamond
engagement ring. On the morning of the Cheviot robbery, Felix “told [Love] that he had robbed a
Cheviot Savings and Loan,” and again described his methods (including his use of a silver gun and
white zip-ties). Felix again gave her cash and left. Love matched his clothing the day of the
Cheviot robbery (a blue jean jacket, a camouflaged hat, and a face mask) and the car he used
(Escalade) to what bank employees identified. Love also permitted law enforcement officials to
search her residence, where they discovered gloves, black zip-ties, a mask, and a receipt from the
Taco Bell located eighty yards from the Cheviot bank dated two weeks before that robbery.
This information led officials to secure a voice recording of Felix from an unrelated traffic
stop, which they then presented to bank employees to see if they recognized his voice as the
robber’s.

Some, but not all, employees identified in varying degrees Felix’s voice.

Law

enforcement officials also found at another residence more physical evidence linking Felix to the
-2-

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 3

No. 20-3201, United States v. Felix
robberies—pre-zipped white zip-ties, another pair of gloves, and a facial mask. And they obtained
records establishing that within days after the robberies, Love and Felix became current on bills
and Felix made significant cash buys at local casinos. Finally, officials discovered that Felix had
a previous conviction for armed bank robbery.
Based on this and other evidence, a jury convicted defendant on one count of bank robbery
(for the Cincinnatus bank), one count of armed bank robbery (for the Cheviot bank), and one count
of using or carrying a firearm during a crime of violence (for the Cheviot bank). The district court
sentenced him to serve a total of three hundred months and one day in prison. He timely appeals.
II.
Felix’s first claim of appeal deals with a 1996 robbery of another metropolitan-Cincinnati
bank (a Huntington Bank in Florence, Kentucky), also on a Wednesday around 8:00 am. With his
face covered (this time with a bandana), Felix pointed a gun, forced his way inside, tied up
employees, and ultimately netted over three-hundred thousand dollars from the bank’s vault. After
the robbery, Felix traveled to Las Vegas to gamble. But unlike the instant offenses, that robbery
involved two accomplices; one was an employee (at whom Felix pointed his gun) who told Felix
that the bank was going to get its cash delivery on the Wednesday morning, and the other (the
employee’s boyfriend) also entered the bank with him. Felix ultimately pleaded guilty to armed
bank robbery and possessing a firearm during a crime of violence and was sentenced to 123 months
in prison.
The district court permitted the introduction of this evidence under Federal Rule of
Evidence 404(b)(2), which allows the admission of “other crimes, wrongs or acts” for the purpose
of “proving motive, opportunity, intent, preparation, plan, knowledge, identity, absence of mistake,
or lack of accident,” among others. In a comprehensive written opinion, the district court
-3-

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 4

No. 20-3201, United States v. Felix
concluded that Rule 404(b)(2) permitted admission of the prior robbery to show both identity and
modus operandi given the 1996 robbery’s “sufficient distinct and standard commonalities” with
Felix’s charged conduct. For the reasons that briefly follow, we agree.
We have adopted a three-step test in reviewing a district court’s admission of Rule 404(b)
evidence. See United States v. Mandoka, 869 F.3d 448, 456–57 (6th Cir. 2017). First, “we review
for clear error whether there is a sufficient factual basis for the occurrence of the ‘bad act’ that is
being proffered as evidence (and challenged pursuant to 404(b)).” Id. at 456 (citation omitted).
No one disputes this step, for Felix admitted to (and was convicted of) committing the 1996
robbery.
Second, we examine whether the government proffered the evidence for an admissible
purpose. Id. Although our review is de novo, id., we find persuasive the district court’s thorough
reasoning that the 1996 robbery is admissible to show identity and modus operandi, and we adopt
it as our own. In brief, the similarities among the three robberies—early Wednesday morning, use
of a weapon to force his way into the vault, use of a facial covering, and binding of bank
employees—“in combination, present an unusual and distinctive pattern constituting a ‘signature’”
sufficient for purposes of admission under Rule 404(b). United States v. Mack, 258 F.3d 548, 554
(6th Cir. 2001). And although some aspects of the 1996 robbery were distinct (namely, Felix wore
different attire, used different binding methods, and had “inside” help), we never require “the
crimes be identical in every detail” for admission under Rule 404(b). United States v. Perry, 438
F.3d 642, 648 (6th Cir. 2006) (citation omitted).1

1

The main difference between the 1996 robbery and the 2015 robberies was Felix’s
decision in 2015 to forgo the use of accomplices. But as the district court observed, that decision
appears as a refinement of method rather than an abandonment of core technique, given that his
arrest in 1996 was the direct result of his accomplices’ cooperation with law enforcement.
-4-

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 5

No. 20-3201, United States v. Felix
Third and last, “we review for an abuse of discretion whether the probative value of the
proffered evidence is substantially outweighed by any undue prejudice that will result from its
admittance.” Mandoka, 869 F.3d at 456–57 (citation omitted). The district court found this step
to also be in the government’s favor, focusing on its highly probative nature and the limited
evidentiary alternatives available to the government to prove identity. And the district court gave
an appropriate limiting instruction with respect to the 1996 robbery. See United States v. Allen,
619 F.3d 518, 525 (6th Cir. 2010). On this record, we cannot say the objected-to evidence was
“substantially more prejudicial than probative,” United States v. Jackson, 918 F.3d 467, 483 (6th
Cir. 2019), and therefore find no error, let alone an abuse of discretion.
III.
Felix next takes issue with how an investigator obtained pretrial voice identifications from
some of the bank employees (and the subsequent introduction of those identifications at trial).
Lieutenant Steven Mathews of the Harrison Police Department obtained a recording of a
traffic stop involving Felix and then asked the witnesses in August 2015—two months after the
June Cheviot robbery and six months following the February Cincinnatus robbery—whether they
could positively identify the recorded voice. Before playing the recording for each witness (and
while covering up the video screen), Lt. Mathews read each the following statement:
You will be asked to listen to the audio portion of a DVD. You will not be shown
the video. The fact that the audio is being played for you should not influence your
judgment. You should not conclude or guess that the audio contains the voice of
any person who committed a crime involving you. You are not obligated to identify
anyone. It is just as important to free innocent persons from suspicion as to identify
guilty parties. Please do not discuss the case with other witnesses, nor indicate in
any way that you have identified someone.
Matthews did not play any other audio for the witnesses. The results varied. One witness told
Mathews he “was a hundred percent positive” it was the robber’s voice. Two others pegged it at
-5-

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 6

No. 20-3201, United States v. Felix
seventy-five percent, and one of these two “got teary-eyed as the audio was being played. She
thought it was the person who robbed the bank,” but equivocated because “it was so long ago.”
The three remaining witnesses could not make a positive identification.
Felix contends the district court clearly erred when it denied his motion to suppress these
identifications. See United States v. Beverly, 369 F.3d 516, 538 (6th Cir. 2004). A defendant
seeking to exclude identification testimony must show that that the process was “both suggestive
and unnecessary” so as to give rise to a “substantial likelihood of misidentification.” Perry v. New
Hampshire, 565 U.S. 228, 238–39 (2012) (citation omitted). If a defendant makes that showing,
a court must then consider the totality of the circumstances surrounding the identification to
evaluate its reliability. United States v. Sullivan, 431 F.3d 976, 985 (6th Cir. 2005).
In denying Felix’s motion to suppress, the district court found unpersuasive Felix’s
contention that the process’s single-recording nature rendered it impermissibly suggestive. This
is because, in the district court’s view, the results speak for themselves—only one witness was
certain Felix was the robber, and the remaining five either harbored doubts or could not identify
Felix at all. The district court also concluded that Lt. Mathews “took appropriate steps to minimize
suggestiveness” by giving them the admonition and not otherwise influencing or tainting the
process. Finally, the court rejected Felix’s argument that because it used audio from a traffic stop,
the process suggested Felix “had prior contact with law enforcement for breaking the law” given
the circumstances of the traffic stop—the conversation’s tone was respectful (and at one point the
officer noted his sympathy after hearing Felix was returning from a funeral) and Felix did not
receive a citation from the stop. Upon review of the record and Felix’s one-paragraph repetition
of the arguments he advanced below without critique of the district court’s well-reasoned analysis,
we discern no clear error in this conclusion. And even though this conclusion means we need not
-6-

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 7

No. 20-3201, United States v. Felix
consider defendant’s remaining arguments concerning the recording’s alleged unnecessary nature
or unreliability, see, e.g., United States v. Washington, 714 F.3d 962, 968 (6th Cir. 2013), we agree
with the government that both the district court did not clearly err in rejecting those arguments and
the overwhelming evidence of Felix’s guilt would render any such error harmless, see, e.g., United
States v. Kilpatrick, 798 F.3d 365, 378–79 (6th Cir. 2015).
IV.
The last issue on appeal is whether the district court erred in concluding neither the Speedy
Trial Act nor the Sixth Amendment merited dismissal of Felix’s indictment despite there being
close to two-and-one-half years between his indictment in January 2017 and trial in July 2019.
A.
We now set forth in more detail the facts and procedural history about this timespan. A
grand jury indicted defendant on his three charges on January 18, 2017. Following his initial
appearance (February 6, 2017), arraignment and detention hearing (February 9, 2017), and a
preliminary pretrial conference (February 10, 2017), Felix moved for, and was granted, two
continuances to prepare for discovery and trial. In granting these requests, the district court
determined that the time running from March 3, 2017 to June 16, 2017 was excluded for Speedy
Trial Act purposes under 18 U.S.C. § 3161(h)(7)(A), (B)(iv). A total of twenty days elapsed on
the Speedy Trial Act clock before those dates.
Enter June 16, 2017. This date is important for two reasons. First, defendant filed two
separate motions to suppress, one regarding the pretrial voice identifications discussed above, and
the other evidence gathered from his sister’s house. Second, this is also when the government filed
its notice and motion to admit Felix’s prior conviction for bank robbery discussed above. Briefing
on these motions concluded July 21, 2017.
-7-

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 8

No. 20-3201, United States v. Felix
The case did not advance further until November, when the district court set a January 19,
2018 evidentiary hearing regarding the evidence collected at the home of Felix’s sister. Following
that hearing, the parties submitted supplemental briefing (and defendant even requested and
received briefing extensions) which was finally completed on March 13, 2018. In the meantime,
the district court similarly held an evidentiary hearing on the pretrial voice identifications on
March 1, 2018, and post-hearing briefs were complete (again with defendant requesting an
extension) on March 16, 2018.
Nothing happened from that point until June 18, 2018, when the government filed a motion
for a status conference “to allow the Court and the parties to discuss the speedy trial clock and set
the matter for trial.” Two weeks later and without a response from the district court, Felix moved
on July 6, 2018 to dismiss the indictment under the Speedy Trial Act. The government responded
by again requesting a status conference for the reasons stated above.
Still, the district court did not act on the government’s request. So on January 30, 2019,
Felix filed another motion to dismiss, this time under the Sixth Amendment. Briefing on that
motion finished on February 26, 2019. On April 8, 2019, the district court set an April 15, 2019
hearing on the motions to dismiss. And on May 14, 2019, it set a May 28, 2019 hearing on the
government’s 404(b) motion. The district court then resolved the pending motions by June 24,
2019. Following other motions and findings not relevant to this appeal, Felix’s trial began July 1,
2019.
B.
We turn first to whether the district court erred in denying Felix’s motion to dismiss under
the Speedy Trial Act. The Act provides that a trial “shall commence within seventy days” after
the public filing of an indictment or initial appearance (whichever comes later), 18 U.S.C.
-8-

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 9

No. 20-3201, United States v. Felix
§ 3161(c)(1), but includes a number of exclusions from this seventy-day period. The district court
concluded that the government’s June 16, 2017 in limine motion to admit evidence of the prior
bank robbery under Federal Rule of Evidence 404(b) tolled the clock at twenty days under
§ 3161(g)(D), and thus denied defendant’s motion.2 Upon review of the district court’s factual
findings for clear error and its interpretation of the Act de novo, see United States v. Stewart, 729
F.3d 517, 523 (6th Cir. 2013), we agree.
Section 3161(h)(1)(D) provides that any “delay resulting from any pretrial motion, from
the filing of the motion through the conclusion of the hearing on, or other prompt disposition of,
such motion” is automatically excluded from consideration. The Supreme Court has interpreted
this language to mean that “when a pretrial motion requires a hearing, [it] on its face excludes the
entire period between the filing of the motion and the conclusion of the hearing.” Henderson v.
United States, 476 U.S. 321, 329 (1986). Upon completion of the hearing (as well as receipt of
supplemental filings related to the heard motion), the Act then requires “prompt disposition” of
the motion that is now considered “actually under advisement.” Id. at 329, 331. But even then,
§ 3161(h)(1)(H) excludes up to thirty days from that date. See also United States v. Mentz, 840
F.2d 315, 326–27 (6th Cir. 1988) (discussing interplay between (h)(1)(D) and (h)(1)(H), as well
as those motions not requiring a hearing). Finally, “the filing of a pretrial motion falls within
[§ 3161(h)(1)(D)’s exclusion] irrespective of whether it actually causes, or is expected to cause,
delay in starting a trial.” United States v. Tinklenberg, 563 U.S. 647, 650 (2011).
There is no disputing that the government’s June 16, 2017 Rule 404(b) motion tolled the
Speedy Trial Act clock.

Defendant contends it was at most a motion falling under

2

It also held in the alternative that the government’s June 18, 2018 motion tolled the clock
at fifty-two days. We need not address this holding.
-9-

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 10

No. 20-3201, United States v. Felix
§ 3161(h)(1)(H)’s thirty-day, “actually under advisement” provision. This is because, he argues,
neither party requested a hearing, and the court did not state it was going to hold a hearing upon
briefing completion. We disagree.
Section § 3161(h)(1)(D)’s plain language, as interpreted by the Supreme Court in
Henderson, belies this argument. Here the district court concluded the government’s motion
“require[d] a hearing,” Henderson, 476 U.S. at 329, and held one on May 28, 2019. That the
district court did not contemporaneously indicate its intent to hold a hearing following the
completion of briefing is of no moment—the scheduling and completion of the hearing is all that
is required to for § 3161(g)(1)(D) to apply. Id. And we refuse to conclude, as defendant implies,
that the district court held the hearing in retrospect to cure a Speedy Trial Act issue. We take the
district court at its word that it “always schedules motions in limine for hearing and fully intended
to do so in this case.” And following the hearing, it resolved the motion within thirty days (and
thus § 3161(h)(1)(H)’s exclusion applied to that delay), entering an order granting the
government’s motion on June 24, 2019. By this point and as set forth above, only twenty days had
run. With Felix’s trial beginning on July 1, 2019, the district court properly concluded Felix did
not establish a violation of the Speedy Trial Act.
C.
That leaves us with Felix’s related Sixth Amendment claim. The Sixth Amendment
guarantees that, “[i]n all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial[.]” U.S. Const. amend. VI. In Barker v. Wingo, the Supreme Court established four
factors for evaluating a speedy-trial claim under the Sixth Amendment: (1) whether the delay was
uncommonly long; (2) the reason for the delay; (3) whether the defendant asserted his right to a
speedy trial; and (4) whether prejudice to the defendant resulted. 407 U.S. 514, 530 (1972). “No
-10-

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 11

No. 20-3201, United States v. Felix
one factor is dispositive. Rather, they are related factors that must be considered together with any
other relevant circumstances.” United States v. Sutton, 862 F.3d 547, 559 (6th Cir. 2017). In
determining whether a defendant’s Sixth Amendment right to a speedy trial has been violated, we
review questions of law de novo and questions of fact for clear error. United States v. Young, 657
F.3d 408, 413–14 (6th Cir. 2011). We agree with the district court that even assuming the trial
delay was presumptively prejudicial under the first factor, none of the other factors render a finding
that the delay violated Felix’s Sixth Amendment right to a speedy trial.
“The second Barker factor looks at whether the government or the criminal defendant is
more to blame for the delay.” United States v. Zabawa, 719 F.3d 555, 563 (6th Cir. 2013) (internal
quotation marks and brackets omitted). “Governmental delays motivated by bad faith, harassment,
or attempts to seek a tactical advantage weigh heavily against the government, while neutral
reasons such as negligence are weighted less heavily, and valid reasons for a delay weigh in favor
of the government.” United States v. Robinson, 455 F.3d 602, 607 (6th Cir. 2006). Thus, “different
weights should be assigned to different reasons[,]” Barker, 407 U.S. at 531, and a district court’s
conclusions regarding these inquiries are entitled to “considerable deference.” United States v.
Brown, 169 F.3d 344, 349 (6th Cir. 1999) (citing Doggett v. United States, 505 U.S. 647, 652
(1992)). In finding this factor to be neutral at best, the district court found significant delay
attributable to defendant (due to his requests for additional time and his own pretrial motions) and
just a “small fraction” attributable to the government. Felix acknowledges his actions contributed
to the delay (and finds no fault with the government’s conduct here) but contends the district court
unnecessarily delayed resolving what he characterizes as uncomplicated pretrial motions. The
district court viewed the motions, and their resolution, differently, noting its difficulty in working
through the evidence submitted and its decision to defer the resolution of the suppression motions
-11-

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 12

No. 20-3201, United States v. Felix
pending resolution of defendant’s speedy-trial motions. On this record, we see no reason to upset
the district court’s weighing of this factor.
The third Barker factor considers “[w]hether and how a defendant asserts his right” to a
speedy trial, and “is closely related to the other factors.” 407 U.S. at 531. That is, “[t]he strength
of his efforts will be affected by the length of the delay, to some extent by the reason for the delay,
and most particularly by the personal prejudice, which is not always readily identifiable, that he
experiences.” Id. As the district court concluded, this factor is again neutral. On the one hand,
Felix asserted his Sixth Amendment rights below, but on the other, he did so two years after
indictment and after seeking several continuances and extensions of time.
The fourth and final Barker factor “requires the defendant to show that substantial
prejudice has resulted from the delay.” Zabawa, 719 F.3d at 563 (citation omitted). We assess
prejudice “in the light of the interests of defendants which the speedy trial right was designed to
protect . . . : (i) to prevent oppressive pretrial incarceration; (ii) to minimize anxiety and concern
of the accused; and (iii) to limit the possibility that the defense will be impaired.” Barker, 407
U.S. at 532. The last is “most serious . . . because the inability of a defendant adequately to prepare
his case skews the fairness of the entire system.” Id. The only prejudice advanced by Felix here
is his pretrial incarceration. But “when the government prosecutes a case with reasonable
diligence”—as is the case here—“a defendant who cannot demonstrate how his defense was
prejudiced with specificity will not make out a speedy trial claim no matter how great the ensuing
delay.” Young, 657 F.3d at 418 (brackets and citation omitted). Because the government
prosecuted Felix with reasonable diligence and justified the reasons for his delayed trial, Felix has
not demonstrated either a presumption of prejudice or oppressive pretrial incarceration sufficient
to weigh this factor in his favor. United States v. Williams, 753 F.3d 626, 634 (6th Cir. 2014).
-12-

Case: 20-3201

Document: 42-2

Filed: 03/23/2021

Page: 13

No. 20-3201, United States v. Felix
In sum, we agree with the district court that upon consideration of the Barker factors and
the totality of the circumstances, Felix sustained no speedy trial deprivation in violation of the
Sixth Amendment.
V.
For these reasons, we affirm the district court’s judgment.

-13-

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 1 of 24 PAGEID #: 421

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
UNITED STATES OF AMERICA,
vs.
BRUCE LEE FELIX,
Defendant.

:
:
:
:
:
:
:

Case No. 1:17-cr-009
Judge Timothy S. Black

ORDER:
(1) DENYING MOTION TO DISMISS UNDER THE SPEEDY TRIAL ACT;
(2) DENYING MOTION FOR BOND; AND
(3) DENYING MOTION TO DISMISS UNDER THE SIXTH AMENDMENT
This criminal case is before the Court on Defendant’s motion to dismiss under the
Speedy Trial Act (Doc. 33), motion for bond (Doc. 35), motion to dismiss under the Sixth
Amendment (Doc. 39), and the parties’ responsive memoranda (Docs. 36, 38, 40, 41).
I. BACKGROUND
On January 18, 2017, Defendant Bruce Lee Felix was charged in a three-count
indictment with: bank robbery, in violation of 18 U.S.C. § 2113(a) (Count 1); armed bank
robbery, in violation of 18 U.S.C. § 2113(a), (d) (Count 2); and using, carrying, and
brandishing a firearm during and in relation to a crime of violence, in violation of 18
U.S.C. § 924(c)(1)(A) (Count 3). (Doc. 1).
As charged, Counts 1 and 2 carry terms of imprisonment up to twenty and twentyfive years, respectively. 18 U.S.C. § 2113(a), (d). Additionally, Count 3 carries a
mandatory minimum of seven years imprisonment up to life, which term is required to
run consecutive to any other term of imprisonment. 18 U.S.C. § 924(c)(1)(A).

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 2 of 24 PAGEID #: 422

Defendant’s initial appearance was held on February 6, 2017. (Doc. 6). At that
time, the Government moved for Defendant’s detention pending trial and, accordingly,
the case was scheduled for a detention hearing. (Id.)
Defendant’s detention hearing and arraignment were held on February 9, 2017, at
which time Defendant was ordered detained pending trial. (Docs. 10, 12). The following
day, on February 10, 2017, this Court held Defendant’s preliminary pretrial conference
and established a trial calendar. (Doc. 13). Excluding the day of the initial appearance,
the period of time from the Government’s motion for detention until the detention
hearing, the day of the detention hearing and arraignment, and the day of the preliminary
pretrial conference, the first day on the speedy trial clock ran on February 11, 2017. See
18 U.S.C. § 3161(c)(1), (h)(1), (h)(1)(D).
On March 3, 2017, the Court held a status conference by telephone, during which
Defendant made an oral motion to continue the previously established trial setting and
waive speedy trial time. (Min. Entry & Not. Order, Mar. 3, 2017). In moving for a
continuance, defense counsel specifically cited the need for additional time to adequately
prepare, given the voluminous discovery and the anticipated supplemental discovery.
(Id.) The Court granted the requested continuance and made an ends-of-justice finding,
tolling time until the new trial date of June 12, 2017. (Id.)
On May 1, 2017, the Court held another status conference, during which the Court
was advised that Defendant required another continuance and a further extension until
June 16, 2017 to file pretrial motions. (Min. Entry & Not. Order, May 2, 2017). The
Court again granted the requested continuance and made an ends-of-justice finding,
2

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 3 of 24 PAGEID #: 423

tolling time until the new motion deadline of June 16, 2017. (Id.) Given Defendant’s
need for additional time and his intent to file pretrial motions, the Court also vacated the
June 12, 2017 trial date. (Id.)
On June 16, 2017, Defendant filed a motion to suppress pretrial identifications
(Doc. 15) and a motion to suppress evidence (Doc. 16). Additionally, the Government
filed a motion to admit Rule 404(b) evidence. (Doc. 17). The motions were
preliminarily briefed, after which Defendant’s two motions were set for hearing.1
The hearing on Defendant’s motion to suppress evidence (Doc. 16) was held on
January 19, 2018 (Min. Entry & Not. Order, Jan. 19, 2018).2 After the transcript was
made available (Doc. 23), and after the Court granted Defendant’s two requests for
extensions of time (Not. Orders, Feb. 13, 2018 & Mar. 5, 2018), the Court received posthearing briefs on the motion to suppress evidence (Docs. 24, 26, 27).
On March 1, 2018, the Court held a hearing on Defendant’s motion to suppress
pretrial voice identifications (Doc. 15). (Min. Entry, Mar. 1, 2018). Again, after the
transcript was made available (Doc. 28), and after the Court granted another request from
Defendant for an extension of time (Not. Orders, Apr. 12, 2018), the Court received post-

1

The Court received responses in opposition to all motions, i.e., two responses from the
Government (Docs. 19, 20) in opposition to Defendant’s two motions to suppress, and one
response from Defendant (Doc. 21) in opposition to the Government’s Rule 404(b) motion.
Thereafter, the Court received only one reply (Doc. 22), filed by Defendant in support of the
motion to suppress evidence.
2

The Court was originally scheduled to hear both of Defendant’s motions on January 19, 2018,
but subsequently granted the Government’s unopposed request to bifurcate the hearings, which
request was prompted by the unavailability of a witness.

3

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 4 of 24 PAGEID #: 424

hearing briefs on Defendant’s motion to suppress pretrial voice identifications (Docs. 29,
30, 31). The final post-hearing brief was filed on April 16, 2018. (Doc. 31).
On June 18, 2018, the Government filed a motion requesting a status conference,
i.e., quite literally, a motion requiring a hearing. (Doc. 32). In that motion, the
Government asserted that “[a]pproximately two weeks remain on the speedy trial clock.”
(Id. at 1). Accordingly, the Government requested a conference in order “to discuss the
speedy trial clock and set the matter for trial.” (Id.) The Court, however, believed the
Government’s speedy trial computation to be in error and thus intended to set the case for
a hearing “to discuss the speedy trial clock…,” and, if appropriate, establish a trial
calendar, just as the Government had requested. Accordingly, the time from the filing of
the Government’s motion through the date of the anticipated hearing was tolled pursuant
to 18 U.S.C. § 3161(h)(1)(D). The Court also considered the appropriate timing of such a
hearing and planned to hold the hearing in conjunction with the resolution of Defendant’s
motions to suppress. From the Court’s perspective, waiting to confer with the parties and
establish a trial setting was by far the more efficient and logical approach. Thus, any
delay in the Court setting a hearing to address the Government’s motion for status
conference did not merely outweigh the interests in a speedy trial, but in fact best served
those interests.
However, on July 6, 2017, before the Court had an opportunity to schedule a
hearing, Defendant filed a motion to dismiss under the Speedy Trial Act. (Doc. 33). The
Court elected to await full briefing on the motion before setting a hearing, which hearing
would not only address Defendant’s motion to dismiss (Doc. 33), but may also serve to,
4

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 5 of 24 PAGEID #: 425

at least partially, address the Government’s motion for a status conference (Doc. 32).
Based on the Court’s standard briefing schedule, the Government’s response to
Defendant’s motion to dismiss was due by July 27, 2018, i.e., twenty-one days after
Defendant’s motion.3 Although this Court had every reason to believe the Government
would prepare a response in opposition to the motion, no such response was filed.4
Regardless, the Court still intended to set the matter for hearing, given that, from the
Court’s perspective, the parties’ speedy trial computation appeared to be in error.
Before the Court scheduled the hearing, however, on August 8, 2018, the
Government filed another motion for a status conference. (Doc. 34). In this second
motion, the Government stated that the conference was necessary “to discuss the speedy
trial clock and set the matter for trial.” (Id.) (emphasis added). The Government’s
contention that the matter should be set for trial was somewhat odd, given the
Government’s failure to respond to the motion to dismiss. Adding to the perplexity, the
Court also received an email from defense counsel on August 8, 2018, stating that

3

Pursuant to this Court’s Criminal Procedures Standing Order, “[a]ll motions shall be briefed
according to S.D. Ohio Civ. R. 7.2(a)(2),” which allows twenty-one days for a response in
opposition and fourteen days for a reply. Criminal Procedures Form, Judge Timothy S. Black
Standing Orders, available at: http://www.ohsd.uscourts.gov/FPBlack.
4

Despite the fact that the Government did not file a response, Defendant’s motion to dismiss
nonetheless tolled time from July 6, 2018 until at least July 27, 2018. As an initial matter, the
hearing on the motion to dismiss had not yet occurred and, therefore, time was tolled regardless.
18 U.S.C. § 3161(h)(1)(D). Moreover, the Court did not have before it the filings it reasonably
expected to receive, nor did the Court have any indication that no filings were forthcoming.
Thus, even if the Court had no intention of holding a hearing, the motion was not ripe for
decision and could not have been “actually under advisement.” See 18 U.S.C. § 3161(h)(1)(H);
Henderson v. United States, 476 U.S. 321, 329-30 (1986) (the Court “has a motion ‘under
advisement’ … from the time the court receives all the papers it reasonably expects”).

5

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 6 of 24 PAGEID #: 426

defense counsel had discussed the matter with the Government and wondered whether a
status conference might be an appropriate next step. In short, Defendant now appeared to
join in the Government’s request to be heard. All of this only further solidified the
Court’s need to set the case for hearing. Thus, time was tolled, from the date of the
motions—i.e., the Government’s first motion for status conference (June 18, 2018),
Defendant’s motion to dismiss (July 6, 2018), and the Government’s second motion for
status conference (August 8, 2018)—through the date of the hearing.
Before a hearing was scheduled, on September 20, 2018, Defendant filed a motion
for bond. (Doc. 35). The Court once again, in an effort to consolidate any necessary
hearings on pending motions, awaited full briefing of the motion before proceeding to
select a hearing date.
On October 1, 2018, the Court received the Government’s response in opposition
to the motion for bond. (Doc. 36). In its response, the Government expressed more
firmly the position that the speedy trial clock had not yet run. (Id.) In other words, the
response to the motion for bond also responded, in part, to the motion to dismiss.
Defendant filed his reply on October 18, 2018, after requesting and receiving an
extension of time. (Doc. 38). On October 25, 2018 and November 1, 2018, the Court
received emails from the Government (with copy to defense counsel), asking that the
matter be set for a formal conference with the Court within the next few weeks.
On January 30, 2019, Defendant filed a motion to dismiss under the Sixth
Amendment. (Doc. 39). On February 12, 2019, the Government filed its response in
opposition (Doc. 41) and Defendant filed a reply on February 26, 2019 (Doc. 41).
6

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 7 of 24 PAGEID #: 427

On April 15, 2019, the Court held a hearing on Defendant’s motion to dismiss
under the Speedy Trial Act (Doc. 33), motion for bond (Doc. 35), and motion to dismiss
under the Sixth Amendment (Doc. 39). Accordingly, Defendant’s motions are now ripe
for decision.
II. STANDARD OF REVIEW
A. Dismissal for Speedy Trial Act Violations
The Speedy Trial Act provides that, subject to certain periods of exclusion, the
trial of a defendant who has pleaded not guilty to a charge in an information or
indictment “shall commence within seventy days from the filing date (and making public)
of the information or indictment, or from the date the defendant … [appears before] the
court in which such charge is pending, whichever date last occurs.” 18 U.S.C. §
3161(c)(1), (h).
In the event that “a defendant is not brought to trial within the time limit required
by section 3161(c) as extended by section 3161(h), the information or indictment shall be
dismissed on motion of the defendant.” 18 U.S.C. § 3162(a)(2). Defendant carries the
burden of proof as to the motion. Id.
“[I]f a meritorious and timely motion to dismiss is filed, the district court must
dismiss the charges, though it may choose whether to dismiss with or without prejudice.”
Zedner v. United States, 547 U.S. 489, 499 (2006). In determining whether to dismiss
with or without prejudice, “the court shall consider, among others, each of the following
factors: the seriousness of the offense; the facts and circumstances of the case which led

7

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 8 of 24 PAGEID #: 428

to the dismissal; and the impact of a reprosecution on the administration of [the Speedy
Trial Act] and on the administration of justice.” 18 U.S.C. § 3162(a)(2).
B. Dismissal for Sixth Amendment Speedy Trial Violation
The Sixth Amendment guarantees that “[i]n all criminal prosecutions, the accused
shall enjoy the right to a speedy and public trial ….” U.S. Const. amend. VI.
To determine whether a defendant has been denied his Sixth Amendment right to a
speedy trial, the Court must consider four factors: (1) the length of delay; (2) the reason
for the delay; (3) the defendant’s assertions of his right; and (4) prejudice to the
defendant. United States v. Young, 657 F.3d 408, 414 (6th Cir. 2011) (citing Barker v.
Wingo, 407 U.S. 514, 530 (1972)). In contrast to the remedies available for violation of
the Speedy Trial Act, “the proper remedy for a violation of a defendant’s constitutional
speedy-trial rights is dismissal of the indictment with prejudice.” Id. at 413.
III. ANALYSIS
Defendant seeks dismissal of the Indictment with prejudice, arguing that the delay
since commencement of this case has violated the Speedy Trial Act and has further
deprived him of his Sixth Amendment right to a speedy trial. (Docs. 33, 39). Defendant
also moves separately for bond. (Doc. 35).
During the April 15, 2019 motion hearing, the Government made clear its position
that the Speedy Trial Act had not been violated and that, in fact, eighteen days remain on
the calendar. (Doc. 42 at 11). The Government explained that its June 18, 2018 motion
for a status conference (Doc. 32) was filed in order to seek specific action from the Court
(i.e., establish a calendar in light of what the Government perceived to be a waning
8

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 9 of 24 PAGEID #: 429

speedy trial clock) and was not a veiled attempt to subvert the Speedy Trial Act. (Doc.
42 at 8-9). However, the Government further argued that, its own intentions aside, the
motion for a status conference was nevertheless a pretrial motion that serves to toll time
by operation of law. (Id.) Finally, the Government argued that the time elapsing from
Defendant’s motion to dismiss under the Speedy Trial Act, as well as the motions for
bond and dismissal under the Sixth Amendment, also tolled time from the dates of filing
through the April 15, 2019 hearing. (Id. at 10-11).
In response, Defendant argues that the Government’s June 18, 2018 motion for a
status conference must be interpreted in only one of two ways: (1) as a motion for a
continuance; or (2) as a notice to the Court. (Id. at 14). However, Defendant asserts that
the motion cannot actually be construed as a motion for a continuance, given that the
Government made no such request nor indicated any need for additional time. (Id. at 1516). Therefore, of the two options, Defendant argues that the Court should construe the
Government’s motion as merely a notice of the waning speedy trial clock, rather than a
motion “legitimately seeking some sort of relief from the Court.” (Id. at 15).
Accordingly, Defendant asserts that the motion cannot serve to toll time. (Id. at 16).
As stated more fully below, the Court finds no violation of the Speedy Trial Act
and, therefore, neither dismissal nor bond are warranted. Moreover, the Court finds that
there has been no violation of Defendant’s Sixth Amendment right to a speedy trial.
A. The Speedy Trial Act
The Speedy Trial Act requires that trial commence within seventy-days of either
the filing of the indictment or a defendant’s initial appearance, whichever occurs later.
9

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 10 of 24 PAGEID #: 430

18 U.S.C. § 3161(c)(1). However, the Act excludes certain periods of time from that
seventy-day computation. 18 U.S.C. § 3161(h).
Some of these delays are excludable only if the district court
makes certain findings enumerated in the statute[, pursuant to
18 U.S.C.] § 3161(h)(7). Other delays are automatically
excludable, i.e., they may be excluded without district court
findings. … [S]ubsection (h)(1) requires the automatic
exclusion of ‘any period of delay resulting from other
proceedings concerning the defendant, including but not
limited to’ periods of delay resulting from [(h)(1)’s] eight
enumerated subcategories of proceedings.
Bloate v. United States, 559 U.S. 196, 203 (2010).
Relevant here, 18 U.S.C. § 3161(h)(1)(D) provides for the automatic exclusion of
“delay resulting from any pretrial motion, from the filing of the motion through the
conclusion of the hearing on, or other prompt disposition of, such motion….” Notably,
“the phrase ‘or other prompt disposition’ … does not imply that only ‘reasonably
necessary’ delays may be excluded between the time of filing of a motion and the
conclusion of the hearing thereon.” Henderson v. United States, 476 U.S. 321, 329-30
(1986). Further, “the filing of a pretrial motion falls within [(h)(1)’s automatic exclusion]
provision irrespective of whether it actually causes, or is expected to cause, delay in
starting a trial.” United States v. Tinklenberg, 563 U.S. 647, 650 (2011).
Also relevant is 18 U.S.C. § 3161(h)(1)(H), which provides for the automatic
exclusion of “delay reasonably attributable to any period, not to exceed thirty days,
during which any proceeding concerning the defendant is actually under advisement by
the court.” The Court “has a motion ‘under advisement’ … from the time the court
receives all the papers it reasonably expects[.]” Henderson, 476 U.S. at 329.
10

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 11 of 24 PAGEID #: 431

1. The Government’s Rule 404(b) Motion Remains Pending
Here, the Court finds that the speedy trial clock has been tolled since June 16,
2017, as the Government’s motion in limine to admit Rule 404(b) evidence (Doc. 17)
remains pending and is neither ripe for consideration yet, nor has a hearing occurred.
Based on this computation, only twenty days have run against the clock.
First, the Court notes Defendant’s contention that the Government’s motion in
limine does not require a hearing. (Doc. 33 at 4). The Court, however, rejects the notion
that the parties determine what motions the Court hears. Whether a hearing is helpful or
necessary is a matter for the Court to decide, not the parties. And, indeed, this Court
always schedules motions in limine for hearing and fully intended to do so in this case.
Moreover, a motion in limine is a pre-trial motion seeking a the Court’s ruling on
the admissibility of evidence, which ruling “[t]he parties may then consider … when
formulating their trial strategy.” United States v. Luce, 713 F.2d 1236, 1239 (6th Cir.
1983). In other words, a motion in limine is a pre-trial motion that anticipates actually
proceeding to trial.
It is, therefore, illogical for the Court to take a motion in limine under advisement
before it is reasonably certain that the case will actually proceed to trial. This is
particularly true when the Court also has pending before it two unresolved motions to
suppress, either of which could significantly alter the course of the proceedings. For
instance, should the Court grant either of the motions to suppress, the Government may
determine that it lacks sufficient evidence to proceed to trial or, at the very least, that the
risk of going to trial with a weaker case warrants conceding to a favorable plea deal.
11

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 12 of 24 PAGEID #: 432

Conversely, if the Court denies the motions to suppress, Defendant may conclude that the
risk of going to trial is too great and that accepting a plea is the safer option. Under either
scenario, a ruling on the motion in limine would never be necessary. Requiring the Court
to take the motion under advisement prematurely serves only to impose upon the Court’s
already severely limited time and resources. Such a burden, in and of itself, undermines
the purpose of the Speedy Trial Act. See Tinklenberg, 563 U.S. at 657.5
Accordingly, even assuming that the Court had no intention of holding a hearing
on the Government’s motion in limine, the motion is not “actually under advisement” of
the Court until Defendant’s motions to suppress are resolved and the parties confirm that
trial is imminent. 18 U.S.C. § 3161(h)(1)(H) (emphasis added).
However, in this case, the Court fully intended (and still intends, at the appropriate
time) to hold a hearing on the Government’s motion in limine and, accordingly, time
continues to toll pursuant to 18 U.S.C. § 3161(h)(1)(D).

5

In Tinklenberg, the Supreme Court held that 18 U.S.C. § 3161(h)(1)(D)’s automatic exclusion
applies to any pretrial motions, irrespective of whether the motion caused or was expected to
cause actual delay of the trial. 563 U.S. at 650. The Supreme Court explained that its holding
was consistent with virtually all lower courts and that the interpretation by “the lower courts
about the meaning of a statute of great practical administrative importance in the daily working
lives of busy trial judges is itself entitled to strong consideration[.]” Id. at 657. Moreover, the
Supreme Court rejected the ‘actual delay’ approach, noting that such an “interpretation would
make the subparagraph (D) exclusion significantly more difficult to administer. And in doing so,
it would significantly hinder the Speedy Trial Act’s efforts to secure fair and efficient criminal
trial proceedings.” Id. (citing H.R.Rep. No. 93–1508, p. 15 (1974) (“the Act seeks to achieve
‘efficiency in the processing of cases which is commensurate with due process’”).

12

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 13 of 24 PAGEID #: 433

2. The Government’s June 18, 2018 Motion Tolled Time
Even absent the Government’s motion in limine, the Court finds that there are still
eighteen days remaining on the speedy trial clock, as time tolled on June 18, 2018, when
the Government filed its motion for a status conference.
As previously stated, supra, the first day to actually run against the speedy trial
clock was February 11, 2017, and time then continued to run until March 2, 2017. In
total, twenty days ran against the speedy trial clock during this time, i.e., February 11,
2017 to March 2, 2017.
Thereafter, the Court’s March 3 and May 1, 2017 ends-of-justice findings tolled
time until the motion filing deadline of June 16, 2017. 18 U.S.C. § 3161(h)(7)(A),
(B)(iv). As of June 16, 2017, time was tolled by the three pending motions: Defendant’s
motion to suppress pretrial voice identifications (Doc. 15); Defendant’s motion to
suppress evidence (Doc. 16); and the Government’s motion to admit Rule 404(b)
evidence (Doc. 17). 18 U.S.C. § 3161(h)(1)(D).
Even excluding the Government motion in limine, it is undisputed that
Defendant’s motions continued to toll time from June 16, 2017 through the date of the
hearings and the post-hearings briefs, the last of which was filed on April 16, 2018 (Doc.
31). (Doc. 33 at 4-5) (“Mr. Felix acknowledges that because the Speedy Trial Act
excludes delay resulting from pretrial motions, the motions filed in this case tolled the
clock from June 16, 2017 until April 16, 2018”) (citing 18 U.S.C. § 3161(h)(1)(D)).
Moreover, provided that as of April 16, 2018, the Court had received all information
necessary to resolve the motions, the thirty-day advisement period began to run on April
13

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 14 of 24 PAGEID #: 434

17, 2018 and thus expired on May 16, 2018. Accordingly, time would have started
running again on May 17, 2018, constituting day twenty-one on the speedy trial clock.
However, the Government’s June 18, 2018 motion stopped the clock again, such
that the last day to run was June 17, 2018, i.e., day fifty-two on the speedy trial clock.
The Court rejects Defendant’s argument that the Government’s motion must be
interpreted as either a motion to continue or a mere notice regarding the speedy trial
computation. The notion that the Government’s pretrial motion would not serve to toll
time unless it was a motion for a continuance is patently false. Indeed, “the filing of a
pretrial motion falls within [(h)(1)’s automatic exclusion] provision irrespective of
whether it actually causes, or is expected to cause, delay in starting a trial.” Tinklenberg,
563 U.S. at 650 (emphasis added). And, as Defendant admitted during the hearing,
nothing about the Government’s motion implies that a continuance was sought. Thus,
Defendant’s assertion that the Court must interpret the motion as a request for a
continuance is without merit.
Also without merit is Defendant’s position that the Court should treat the
Government’s motion as a mere notice. The Government’s motion expressly requests a
conference with the Court in order to address the speedy trial computation and to
establish a trial calendar. Thus, the motion is a specific request for action from the Court,
which request, by its very terms, requires a hearing. Moreover, as the Court previously
noted, the Government’s motion also set forth a rough estimation of remaining speedy
trial time, which calculation was inconsistent with what the Court perceived. Thus, even

14

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 15 of 24 PAGEID #: 435

if the Government had not requested a hearing, the motion nonetheless gave rise to the
Court’s need for a hearing to address the issue.
The Court further rejects any assertion that the Government’s motion was a pretext
to toll speedy trial time. Indeed, the Government, to its credit, readily admits that it did
not intend to toll speedy trial time. Regardless, a party’s intent does not override the
operation of law. See 18 U.S.C. § 3161(h) (“The following periods of delay shall be
excluded … in computing the time within which the trial … must commence”) (emphasis
added); see also Zedner, 547 U.S. at 500-09 (holding that exclusion of time for a
continuance requires a court’s ends-of-justice finding, and a defendant cannot waive
application of the Speedy Trial Act, “because there are many cases … in which the
prosecution, the defense, and the court would all be happy to opt out of the Act, to the
detriment of the public interest”).
Ultimately, the Government’s June 18, 2018 motion for a status conference was a
pretrial motion and, as the Speedy Trial Act clearly states, “delay resulting from any
pretrial motion, from the filing of the motion through … [its] prompt disposition,” is
automatically excludable. 18 U.S.C. § 3161(h)(1)(D) (emphasis added); see also
Tinklenberg, 563 U.S. at 657-58 (rejecting an interpretation of (h)(1)(D) that would
require a motion-by-motion determination as to which motions should exclude time and
which should not, as such an approach would require “considerable time and judicial
effort … [as well as] the use of various presumptions,” and would “significantly limit the
premise of ‘automatic application’ upon which [(h)(1)(D)] rests”). Accordingly, the
Government’s motion served to toll time starting on June 18, 2018.
15

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 16 of 24 PAGEID #: 436

Less than three weeks later, on July 6, 2018, Defendant filed his motion to dismiss
under the Speedy Trial Act. (Doc. 33). Because that motion required a hearing, which
hearing took place on April 15, 2019, the time elapsing from the filing of the motion
through the conclusion of the hearing is tolled pursuant to 18 U.S.C. § 3161(h)(1)(D).6
The same is true of Defendant’s subsequently filed motions, as explained, supra.
Accordingly, the Court finds that the speedy trial clock has not run in the instant
case. In the first instance, by this Court’s computation, only twenty days have run on the
speedy trial clock to date, based on the Government’s pending motion in limine. (Doc.
17); 18 U.S.C. § 3161(h)(1)(D). However, even if the Court were to exclude
consideration of the Government’s motion entirely, only fifty-two days have run on the
speedy trial clock.
Under either computation, there is no violation of the Speedy Trial Act, and
Defendant’s motion to dismiss is therefore denied. (Doc. 33).

6

The Court rejects Defendant’s attempt to undermine the need for the hearing. Defendant argues
that the hearing is merely the Government’s way of “provid[ing] a convenient mechanism
whereby the Court could sidestep the requirements of the Speedy Trial Act.” (Doc. 38 at 1-2).
This is untrue. As this Court has explained, every filing and interaction with the parties only
further emphasized the need for the hearing. The Court never denied any request for a hearing
and indeed indicated on at least two separate occasions that it intended to schedule a hearing in
this case. Moreover, even defense counsel, by email, indicated in August 2018 that a conference
may be warranted. Yet Defendant now attempts to call into question the sincerity of the hearing,
couching it as nothing more than a pretext suggested by the Government and put on by the Court
to circumvent speedy trial. (Id.) This assertion is absolutely false. The Court intended to set the
case for a hearing to address speedy trial upon the Government’s June 2018 motion. Thereafter,
Defendant’s motion to dismiss on speedy trial grounds became the Court’s focus for purposes of
the hearing. Later, as Defendant’s related motions trickled in weeks apart, the Court awaited
briefing in order to address all related motions simultaneously. The Court’s intent to hold a
hearing is not eviscerated simply because the Court did not expressly and immediately declare it.

16

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 17 of 24 PAGEID #: 437

B. Motion for Bond
Defendant’s motion for bond is brought under 18 U.S.C. § 3164, which requires
the release of a pretrial detainee held in custody longer than 90 days, excepting any
excluded days under the Speedy Trial Act. Having found that, at most, no more than
fifty-two days have expired, Defendant’s motion for bond is denied. (Doc. 35).
C. Sixth Amendment Right to a Speedy Trial
Finally, Defendant moves for dismissal, arguing that he has been denied a speedy
trial under the Sixth Amendment. (Doc. 39).
To determine whether Defendant has been deprived of his Sixth Amendment right
to a speedy trial, the Court must consider: (1) the length of delay; (2) the reason for the
delay; (3) Defendant’s assertion of his right; and (4) prejudice to Defendant. Barker, 407
U.S. at 530. No one factor is a “necessary or sufficient condition to the finding of a
deprivation of the right of speedy trial … [but] [r]ather, they are related factors and must
be considered together with such other circumstances as may be relevant.” Id. at 533.
As to the first factor, the length of the delay serves as a “triggering mechanism”
and, if the length is not “presumptively prejudicial,” the Court is not required to
undertake the remainder of Barker analysis. Doggett v. United States, 505 U.S. 647, 65152 (1992); Barker, 407 U.S. at 530–31. “[B]ecause of the imprecision of the right to
speedy trial, the length of delay that will provoke such an inquiry is necessarily
dependent upon the peculiar circumstances of the case.” Barker, 407 U.S. at 530. The
Sixth Circuit has held “delays over one year are ‘uncommonly long.’” United States v.
Baugh, 605 F. App’x 488, 491 (6th Cir. 2015) (citing United States v. Bass, 460 F.3d
17

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 18 of 24 PAGEID #: 438

830, 836 (6th Cir. 2006)). However, “in calculating the length of the delay, only those
periods of delay attributable to the government or the court are relevant to [Defendant’s]
constitutional claim.” United States v. Howard, 218 F.3d 556, 564 (6th Cir. 2000).
Here, excluding the delay attributable to Defendant, the Court finds that the length
of the delay falls short of the one-year threshold and is not otherwise presumptively
prejudicial under the circumstances of this case.
It is without question that any delay from the commencement of the case through
May 16, 2018 (i.e., the expiration of the advisement period for the motions to suppress) is
attributable to Defendant. Defendant was arrested on Saturday, February 4, 2017. (Doc.
11). His initial appearance was held, without delay, on the first available court date,
Monday, February 6, 2017. (Doc. 6). Defendant’s detention hearing and arraignment
were held just three days later, on February 9, 2017. (Doc. 10). The very next day, this
Court held his preliminary pretrial conference and established a trial calendar. (Doc. 13).
Thereafter, as fully detailed, supra, every day of delay up to May 16, 2018 was the direct
result of Defendant’s numerous requests for continuances and extensions of time and the
resolution of Defendant’s pretrial motions to suppress.
From May 16, 2018 to the date of this Order, excluding the time attributable just
to briefing and ruling on Defendant’s motions to dismiss and motion for bond (i.e., 87
days), only nine months have elapsed.7 This delay does not trigger a full Barker analysis.

7

The Court’s calculation of 87 days attributable to Defendant includes: Defendant’s motion to
dismiss under the Speedy Trial Act (approximately 30 days for ruling attributable to Defendant);
Defendant’s motion for bond (29 days for briefing attributable to Defendant); and Defendant’s
motion to dismiss under the Sixth Amendment (28 days for briefing attributable to Defendant).

18

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 19 of 24 PAGEID #: 439

However, even assuming arguendo that the delay was presumptively prejudicial,
based on a Barker analysis, this Court finds no Sixth Amendment violation has occurred.
Specifically, the second factor under Barker questions the reason for the delay.
The United States Supreme Court has made clear that “different weights are to be
assigned to different reasons for delay.” Doggett, 505 U.S. at 657. At its core, this factor
seeks to determine “whether the government or the criminal defendant is more to blame
for th[e] delay.” Vermont v. Brillon, 556 U.S. 81, 90 (2009) (quoting Doggett, 505 U.S.
at 651).
As the Supreme Court explained in Barker:
A deliberate attempt to delay the trial in order to hamper the
defense should be weighted heavily against the government. A
more neutral reason such as negligence or overcrowded courts
should be weighted less heavily but nevertheless should be
considered since the ultimate responsibility for such
circumstances must rest with the government rather than with
the defendant. Finally, a valid reason, such as a missing
witness, should serve to justify appropriate delay.
Barker, 407 U.S. at 531. Naturally, “delay caused by the defense weighs against the
defendant,” which includes delay attributable to defense counsel. Brillon, 556 U.S. at 9091 (citing Coleman v. Thompson, 501 U.S. 722, 753 (1991)).
The initial delay in this case until June 16, 2017 is attributable to Defendant’s
requests for additional time to review discovery and prepare pretrial motions. Thereafter,
the delay until May 16, 2018 is attributable to Defendant’s own pretrial motions, which
were filed and briefed on Defendant’s requested schedule, after the Court granted

19

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 20 of 24 PAGEID #: 440

Defendant’s requested continuances. Moreover, since July 6, 2018, approximately three
months of delay are attributable to Defendant’s three subsequent motions.
Of the remaining nine months, this Court can attribute only a small fraction
directly to the Government, and only on the basis of the Government’s motion for a status
conference and initial failure to file a response to Defendant’s motion to dismiss.
However, neither of these instances were deliberate attempts by the Government to cause
delay. And, indeed, both instances are overwhelmingly offset by the Government’s
repeated good-faith efforts to obtain a conference with the Court, all of which
demonstrate that the Government was not in any sense attempting to delay the trial or
hamper the defense. Indeed, the Government’s motion for a status conference was, quite
literally, an attempt by the Government to obtain a trial setting, not delay it.
Moreover, the delay between May 16, 2018 and June 16, 2018 was not the result
of the Court’s oversight or negligence. Rather, the Court was working diligently to
resolve Defendant’s pending motions to suppress, both of which simply required more
time than the mere 30-days allotted.8 The filing of Defendant’s July 6, 2018 motion to
dismiss prompted the Court to defer resolution of the motions to suppress, pending the

8

For example, the Court was required to consider an audio recording submitted by both parties
as an exhibit relating to Defendant’s motion to suppress evidence. Although the recording was
two hours in length, the manner and flow of the conversation made it excruciatingly difficult to
follow and often required the Court to re-play large segments over and over again. Indeed, the
Court, on a number of occasions, contemplated ordering the parties to produce a transcript of the
recording. However, having dedicated extensive time to the recording, and recognizing that the
preparation of a transcript would only further delay the proceedings, the Court, in an apparently
ironic attempt to save the parties time and effort, opted to push through on its own. The Court
did not perceive the additional time necessary to resolve the motion as posing a speedy trial
issue, given the Court’s own computation of the clock.

20

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 21 of 24 PAGEID #: 441

outcome of the motion to dismiss. Indeed, if the motion to dismiss were granted, it
would obviate the need to resolve the motion to suppress. Thus, while Defendant faults
the Court for leaving the motions to suppress pending, the Court made a deliberate
decision to defer its ruling, which decision was entirely appropriate under the
circumstances. And at no point did the Court have a duty to inform Defendant of the
Court’s rationale for doing so, nor would any such notice have impacted the Court’s
decision. Thus, Defendant’s characterization of the Court allegedly leaving his motions
to languish and ignoring the parties without explanation is entirely baseless.
Regardless, even if the entirety of the nine, notably non-consecutive, months were
attributable to the Court, the reason would be neutral or, at best, only slightly weigh
against the Government. See Barker, 407 U.S. at 531. However, as previously indicated,
the Government’s sincere attempts to secure a conference with the Court, coupled with
even defense counsel’s acknowledgement in August 2018 that a conference may be
fruitful, and the Court’s attempts to consolidate the hearings on Defendant’s constant
motion practice, all render the reason for the delay as neutral. In other words, on the
facts, this Court cannot find that the Government “is more to blame” for the delay. See
Brillon, 556 U.S. at 90.
The third factor is Defendant’s assertion of his right. “Whether and how a
defendant asserts his right is closely related to the other factors,” in that “[t]he strength of
[a defendant’s] efforts will be affected by the length of the delay, to some extent by the
reason for the delay, and most particularly by the personal prejudice, which is not always
readily identifiable, that he experiences.” Barker, 407 U.S. at 531. Stated simply, “[t]he
21

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 22 of 24 PAGEID #: 442

more serious the deprivation, the more likely a defendant is to complain.” Id. Thus, the
Supreme Court has “emphasize[d] that failure to assert the right will make it difficult for
a defendant to prove that he was denied a speedy trial.” Id. at 532.
Here, Defendant’s only assertion of his right to a speedy trial arises from the filing
of his motions to dismiss. Indeed, quite the contrary to asserting his right to a speedy
trial, Defendant had sought numerous continuances and extensions of time. And while
the Court has received inquiries regarding a hearing from the Government, Defendant has
made no such request, save for once acknowledging that a conference may be helpful.
That said, Defendant did promptly file the motion to dismiss when, by his
computation, time had run.
Accordingly, in considering the facts and circumstances of this case, the Court
finds that the third factor neither weighs in favor of nor against Defendant.
Finally, the fourth factor is any resulting prejudice to Defendant. In Barker, the
Supreme Court explained that:
Prejudice, of course, should be assessed in the light of the
interests of defendants which the speedy trial right was
designed to protect … [including]: (i) to prevent oppressive
pretrial incarceration; (ii) to minimize anxiety and concern of
the accused; and (iii) to limit the possibility that the defense
will be impaired. Of these, the most serious is the last, because
the inability of a defendant adequately to prepare his case
skews the fairness of the entire system.
Barker, 407 U.S. at 532.
Notably, “affirmative proof of particularized prejudice is not essential to every
speedy trial claim.” Doggett, 505 U.S. at 656. The Sixth Circuit has elaborated,

22

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 23 of 24 PAGEID #: 443

however, that “[i]n this circuit, ‘[w]hen the government prosecutes a case with reasonable
diligence, a defendant who cannot demonstrate how his defense was prejudiced with
specificity will not make out a speedy trial claim no matter how great the ensuing delay.’”
Young, 657 F.3d at 418 (quoting United States v. Howard, 218 F.3d 556, 564 (6th Cir.
2000)) (emphasis in original); see also United States v. Robinson, 455 F.3d 602, 608 (6th
Cir. 2006) (noting that, in the absence of particularized trial prejudice, “[s]horter delays
[(e.g., thirteen and one-half months versus six-years)] attributable to the government’s
negligence have been held not to give rise to a presumption of prejudice”).
Here, Defendant argues that he has suffered both trial and non-trial prejudice.
Specifically, Defendant asserts non-trial prejudice arising from his continued
incarceration. Pretrial detention is a significant deprivation to any defendant. The Court
agrees the delay has contributed to Defendant’s non-trial prejudice.
Defendant further argues that he has suffered trial prejudice, asserting that a key
defense witness has gone missing. However, as the Court came to learn during the
hearing, Defendant had only maintained contact with his “critical witness” around the
time the Indictment was filed (February 2017). Thereafter, defense came to learn the
witness was allegedly missing in July 2018. So, as an initial matter, the delay at issue
here, i.e., after June 2018, cannot be the cause of Defendant’s missing witness.
More significantly, however, following the hearing, the Government emailed the
Court and defense counsel and provided current contact information for Defendant’s
witness. Specifically, within a matter of hours, the Special Agent, utilizing the same

23

Case: 1:17-cr-00009-TSB Doc #: 43 Filed: 05/08/19 Page: 24 of 24 PAGEID #: 444

database as the defense, had located and contacted the witness, who indicated she was
available to the defense any time by telephone.
Accordingly, Defendant’s allegations of trial prejudice are entirely without merit.
And as non-trial prejudice carries less weight than trial prejudice, the Court deems this
fourth factor as weighing neither in favor of nor against either party.
Having considered each of the Barker factors, the Court finds the delay has not
deprived Defendant of his constitutional right to a speedy trial. Accordingly, dismissal
under the Sixth Amendment is not warranted.
IV. CONCLUSION
Based upon the foregoing, Defendant’s motion to dismiss under the Speedy Trial
Act (Doc. 33), motion for bond (Doc. 35), and motion to dismiss under the Sixth
Amendment (Doc. 39) are DENIED.
IT IS SO ORDERED.
Date: May 8, 2019

Timothy S. Black
United States District Judge

24

